No. 20A28
In the Supreme Court of the United States
REPUBLICAN NATIONAL COMMITTEE and REPUBLICAN PARTY OF RHODE ISLAND,
Applicants,
v.
COMMON CAUSE RHODE ISLAND, LEAGUE OF WOMEN VOTERS OF RHODE ISLAND,
MIRANDA OAKLEY, BARBARA MONAHAN, and MARY BAKER; NELLIE M. GORBEA, in her
official capacity as Secretary of State of Rhode Island; and DIANE C. MEDEROS,
LOUIS A. DESIMONE JR., JENNIFER L. JOHNSON, RICHARD H. PIERCE, ISADORE S.
RAMOS, DAVID H. SHOLES, and WILLIAM E. WEST, in their official capacities as
members of the Rhode Island Board of Elections,
Respondents.

CERTIFICATE OF SERVICE

I, Thomas R. McCarthy, caused three copies of the enclosed Reply in Support
of Emergency Application for Stay to be filed with the Clerk of the Supreme Court of
the United States via hand delivery, to be served on the following by first-class mail
and email:
Michael Courtney Keats
FRIED FRANK HARRIS SHRIVER
& JACOBSON LLP
1 New York Plaza
New York, NY 10004
(212) 859-8914
Michael.Keats@friedfrank.com

Raymond A. Marcaccio
OLIVERIO & MARCACCIO LLP
55 Dorrance St.,
Ste. 400
Providence, RI 02903
(401) 861-2900
ram@om-rilaw.com

i

Angel Taveras
GREENBERG TRAURIG LLP
1 International Pl.,
Ste. 2000
Boston, MA 02110
(617) 310-6096
taverasa@gtlaw.com

Dated: August 12, 2020

/s/ Thomas R. McCarthy
Thomas R. McCarthy
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
tom@consovoymccarthy.com
Counsel of Record for Applicants

ii

